U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Monex Deposit Co., et al. v. Commodity Futures Trading Commission,
No. 19-933
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 23,
2020. The government’s response is now due, after one extension, on May 4, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 26, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0933
MONEX DEPOSIT COMPANY, ET AL.
CFTC

ADITYA DYNAR
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET, NW
SUITE 450
WASHINGTON, DC 20036
202-869-5210
ADI.DYNAR@NCLA.LEGAL
NEIL A. GOTEINER
FARELLA BRAUN & MARTEL LLP
235 MONTGOMERY STREET
17TH FLOOR
SAN FRANCISCO, CA 94104
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
202-346-4000
WJAY@GOODWINLAW.COM
DAVID C. MCDONALD
MOUNTAIN STATES LEGAL FOUNDATION
2596 SOUTH LEWIS WAY
LAKEWOOD, CO 80227
303-292-2021
DMCDONALD@MSLEGAL.ORG

RONALD W. OPSAHL
MOUNTAIN STATE LEGAL FOUNDATION
2596 SOUTH LEWIS WAY
LAKEWOOD , CO 80227
303-292-2021
ROPSAHL@MSLEGAL.ORG

